U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




          PUBLIC
         RELEASE


      NATIONAL OCEANIC AND
ATMOSPHERIC ADMINISTRATION

     Administrative Improvements in the
    National Sea Grant College Program
   Should Accompany Program Changes

         Inspection Report No. IPE-10150 / July 1998




        Office of Inspections and Program Evaluations
U.S. Department of Commerce                                                                                       Report IPE-10150
Office of Inspector General                                                                                               July 1998

                                                 TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

OBSERVATIONS AND CONCLUSIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

          I.        National Sea Grant College Program Is Making Progress in
                    Implementing National Research Council Recommendations . . . . . . . . . . . . . . . 6

          II.       Marine Extension Program Should Benefit from
                    the New Evaluation Process . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

          III.      Improved Coordination Between the Sea Grant College Program and
                    Other Line Offices Must Become a NOAA Priority . . . . . . . . . . . . . . . . . . . . . . 14

          IV.       Grant Processing Workload Can Be Better Managed . . . . . . . . . . . . . . . . . . . . . 17

          V.        Oversight Role of Grants Management Division
                    Needs to Be Strengthened . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

          VI.       Policy on Grantee Matching Funds Needs to Be Clarified . . . . . . . . . . . . . . . . . 23

RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

APPENDIX–AGENCY RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
U.S. Department of Commerce                                                        Report IPE-10150
Office of Inspector General                                                                July 1998

                                   EXECUTIVE SUMMARY

The National Sea Grant College Program, modeled after the Land Grant College System, was
created by the National Sea Grant College Program Act of 1966 to link research, education, and
outreach to further the development and preservation of marine resources. The program was
established in the National Science Foundation in 1967 and moved to the National Oceanic and
Atmospheric Administration (NOAA) in 1970. Sea Grant is designed to address marine and
coastal issues and practical problems by applying both the natural and social sciences and by
transferring technology. The program has concentrated on marine policy, aquaculture, coastal
research, fisheries management, marine biotechnology, and seafood safety. The program
provides annual umbrella “omnibus” grants to 29 approved primary member colleges, which in
turn manage projects at more than 300 public and private colleges, universities, and institutions.

The Sea Grant program is administered by a 17-person National Sea Grant Office (NSGO), made
up mostly of marine and ocean scientists, in NOAA’s Office of Oceanic and Atmospheric
Research. A 15-member Sea Grant Review Panel, appointed by the Secretary of Commerce,
serves in a broad advisory role over the program. The Sea Grant program received $53.3 million
in federal funds in fiscal year 1996 and $54.3 million in fiscal year 1997. Sea Grant
appropriations are used to fund NSGO, nationwide research competitions, and grants to 29 sea
grant university programs. Awards made to sea grant universities require, at a minimum, a
nonfederal match equaling 33 a percent, or more, of the total cost of the sea grant program or
project involved.

After initiating our review of the Sea Grant program, we found that widespread changes are
underway, as NSGO implements a number of recommendations from a comprehensive 1994
National Research Council (NRC) study. Hence, we reduced the scope of our review and have
focused on certain administrative issues. As appropriate, we may revisit the Sea Grant program
after the major changes have been implemented. Our observations from the abbreviated review
include the following:

C      National Sea Grant College Program is making progress in implementing National
       Research Council recommendations. By most accounts, the NRC study was
       comprehensive, had insightful findings, and offered some important and useful
       recommendations. We found that NOAA is implementing five of six major
       recommendations of the NRC study. NOAA did not concur with the recommendation to
       move the National Sea Grant College Program out of a line office to the Office of Under
       Secretary of Oceans and Atmosphere. The most important recommendation, in our
       opinion, is the significant change in the roles and responsibilities of NSGO and the
       university-based sea grant programs. In accordance with this recommendation, sea grant
       universities will take responsibility for peer-reviewed project selection. NSGO is
       establishing guidelines and will oversee and evaluate the sea grant university project

                                                 i
U.S. Department of Commerce                                                         Report IPE-10150
Office of Inspector General                                                                 July 1998

       selection process but will no longer perform reviews on projects selected by sea grant
       universities. NSGO will now concentrate on overall program oversight through a
       comprehensive, results-oriented program review linked to enhancement of funding.
       Beginning in 1998, these reviews of sea grant universities will involve high-level
       assessment teams on a four-year cycle, topical area reviews, and performance reporting.
       To further program coherence, NSGO and Directors of the sea grant universities have
       developed a single 10-year strategic plan that articulates a shared vision and also reflects
       NOAA’s strategic plan. The sea grant strategic plan places new emphasis on closer work
       with marine industries. The national program intends to devote about 20 percent of the
       Sea Grant program budget to NSGO determined and legislatively mandated priorities.

       Given the aforementioned changes in the program, we have two general concerns: First,
       we question whether NSGO will be able to effectively fulfill its oversight responsibilities
       given the congressionally mandated five-percent cap on NSGO administrative
       expenditures. To help stay within the cap, NSGO will undergo staffing reductions of at
       least 26 percent from its 1990 staffing level. NSGO staff must continue to evaluate,
       monitor, and synthesize the results of 29 sea grant universities and coordinate the overall
       sea grant efforts within NOAA. The adequacy of NSGO staffing should be revisited once
       the new evaluation process is in place.

       Second, with less oversight of sea grant university funding decisions, we question
       whether the shift in accountability for project selection to the sea grant universities might
       lead to a diminished role of NSGO and to less coherence and direction for the program.
       It is important that NSGO not abdicate its responsibility to ensure that sea grant funds are
       directed to NOAA’s overall objectives as well as NSGO’s legislatively mandated
       research topics and that the funds are spent appropriately. We believe that a continued
       strong focus on the national dimension of the program is needed to ensure that the entire
       program is more than simply the sum of its constituent sea grant universities. NSGO
       must exert leadership, identify best practices, and use its new evaluation process to help
       encourage further improvements in performance, and oversee the best use of funds (see
       page 6).

C      Marine Extension Program should benefit from the new results-oriented program
       review process. The Marine Extension Program (MEP), made up of coastal extension
       specialists and agents, is supposed to serve as a link between university researchers and a
       wide variety of coastal resource managers, marine businesses, and citizens to address real
       life problems and issues. Despite the importance of the extension role, neither NSGO nor
       the NRC has conducted a comparative review of sea grant university extension programs.
       The NSGO evaluation process now underway intends to look at “best practices” across all
       the sea grant universities. NSGO should also ensure that the review focuses on the
       effectiveness of marine extension services, and recommends improvements in those

                                                 ii
U.S. Department of Commerce                                                           Report IPE-10150
Office of Inspector General                                                                   July 1998

       extension programs whose organizational arrangements and techniques are generally not
       associated with the most productive, integrated, and dynamic MEP programs.
       Programmatic attention to the MEP is long overdue (see page 11).

C      Improved coordination between the Sea Grant program and other line offices must
       become a NOAA priority. Sea Grant needs to be more deeply involved in bringing
       scientific talent from the universities to bear on management problems of the nation’s
       coastal areas and adjacent oceans. Sea Grant, located in the Oceanic and Atmospheric
       Administration (OAR), is one of the few major NOAA marine science programs that has
       not been drawn into the National Ocean Service’s (NOS) newly established Office of
       Coastal Ocean Science. As a result, more effective coordination is still needed between
       Sea Grant and those line offices devoted to resource management--the NOS and the
       National Marine Fisheries Service (NMFS). A good start toward such collaboration has
       been made at the project level through the creation of Sea Grant/NOAA Partnership
       competitions, but more needs to be done regionally and at the agency level. Regular
       meetings between the Assistant Administrators and pertinent staff from OAR, NOS, and
       NMFS should be conducted to ensure coordination between the line offices, to foster
       cooperative activities of their respective partners at the local and state level, and to better
       utilize National Sea Grant College Program resources, such as the marine extension
       networks and scientific expertise, to accomplish their common marine and coastal goals
       (see page 14).

C      Grant processing workload can be better managed. All 29 sea grant awards are
       awarded on February 1 or March 1. As a result, NOAA’s Grants Management Division
       (GMD) and NSGO must process all sea grant university proposals from November
       through February, with a considerable portion of GMD’s work having to be completed
       during the December/New Year holiday season. The grant process is now very
       compressed and stressful. In order to improve the process, the proposals should be
       received by NSGO on time, properly reviewed, and forwarded to GMD on a staggered
       basis. In addition, NSGO program specialists must be available to answer questions
       during the GMD review period. Finally, multiple amendments for the same grant should
       be grouped together to reduce the paperwork and time spent processing amendments (see
       page 17).

C      Oversight role of the Grants Management Division needs to be strengthened. Each
       sea grant award is a four-year grant that covers numerous university projects, is often
       amended to include new projects, and draws on multiple funding sources (e.g., Sea Grant,
       nonfederal matching, and funding from other NOAA programs and federal agencies that
       are “passed-through” NSGO to the sea grant university). As a result, it is difficult for
       NSGO and GMD to track the obligation of funds from the multiple sources as they relate
       to the individual projects and activities. NSGO must ensure that the sea grant universities

                                                  iii
U.S. Department of Commerce                                                      Report IPE-10150
Office of Inspector General                                                              July 1998

       are spending Sea Grant and pass-through funds appropriately by issuing pass-through
       funds as separate grants, collecting information from the sea grant university on the
       breakdown of federal spending, or independently assessing the sea grant universities’
       accounting systems. In addition, relevant interagency agreements or Memoranda of
       Understanding should be included with the pass-through proposals when they are
       submitted by NSGO to GMD (see page 19).

C      Policy on grantee matching funds needs to be clarified. Sea Grant is a cost-sharing
       program, with the sea grant universities contributing 33 a percent nonfederal matching
       funds of the total cost of the project or program. Funds from other NOAA line offices or
       federal agencies, passed through NSGO to the sea grant university, do not need to be
       matched. However, for sea grant appropriations, a sea grant university proposal, for
       either an entire program or a project, must identify how its nonfederal share will be met.
       Amendments for pass-through funds or for new projects are typically added during the
       life of a conventional four-year grant. The unwritten policy is to apply the cumulative
       match in the grant against the cumulative amount of sea grant federal funds. However, it
       is difficult to determine whether match requirements are being properly met because there
       is no convenient summary in the files providing cumulative matching information. To
       ensure a more accurate and traceable recording and accounting for nonfederal matching
       funds, NSGO should issue written policy guidance which clarifies its matching policy. In
       addition, all award proposals forwarded to GMD should include a record of (1) the exact
       amount of pass-through funds used that are not subject to the cost sharing requirements of
       the sea grant federal funds and (2) the amount of Sea Grant federal funds involved and
       the status of the match, per NSGO policy (see page 23).

On page 25, we offer recommendations that address our concerns.



In responding to a draft of this report, NOAA’s Deputy Chief Financial Officer/Chief
Administrative Officer agreed with the report observations and all but two of our
recommendations. NOAA has informed us that it has either taken steps that satisfy the intent of
a majority of the recommendations or will implement changes in the near future. However,
NOAA did not agree with one section of recommendation 4 and, at least for the present,
recommendation 5. In addition, NOAA, while agreeing with recommendation 6, suggested a
different approach for complying with the recommendation.

With regard to recommendation 4, NOAA concurs with our suggestions to expedite the
processing of sea grant awards. NOAA will move forward, by two weeks, the submission date
for grants with a March 1 start date, to alleviate the end-of-calendar year leave problems. NOAA
will also study methods to ensure that the grants will be delivered to GMD in a complete and

                                               iv
U.S. Department of Commerce                                                       Report IPE-10150
Office of Inspector General                                                               July 1998

satisfactory manner. We believe that steps can be taken to forward the incoming grant proposals
as they come in, once they have been thoroughly reviewed by NSGO. NOAA does not agree,
however, that amendments should be grouped together and sent to GMD on a quarterly basis,
citing that the advance time needed to do so decreases program flexibility. While we agree that a
quarterly basis might be inadequate, another schedule, such as six or eight times a year could be
implemented. In any case, we feel it is not an efficient use of GMD’s time to have amendments
arrive on an irregular basis and ask that NOAA reconsider its position (see page 18).

In recommendation 5, NOAA did not agree to issue separate grants for pass-through funds or to
require the sea grant universities to submit a financial form with a breakout of spending by
funding type “at the present time.” NOAA states that “undertaking further analysis of the
problems and recommended solutions” is required. We are requesting that NOAA provide us
with the results of the analysis it intends to conduct (see page 21).

In recommendation 6, NOAA, while agreeing that GMD should help assess and improve sea
grant university administrative procedures and processes, does not agree that the current program
evaluations should be expanded to encompass administrative procedures and processes. NOAA
instead believes that topical assessment teams will provide opportunities for on-site
administrative reviews. While that may be true, we believe such opportunities will be limited
because the assessments will be conducted on an as needed basis and only when, in the case of
grant management, administrative deficiencies are identified. Therefore, we suggest that if
topical assessments are going to be the primary mechanism for an on-site review, GMD should
be given the opportunity to join the assessment team or initiate an assessment, if warranted (see
page 22).

NOAA’s response is synopsized after each chapter and its complete response is included as an
appendix to this report.




                                                v
U.S. Department of Commerce                                                       Report IPE-10150
Office of Inspector General                                                               July 1998

                                      INTRODUCTION

Pursuant to the Inspector General Act of 1978, as amended, the Office of Inspector General
evaluated the National Sea Grant College Program. Program evaluations are special reviews that
the OIG undertakes to provide agency managers with information about operational issues. One
of the main goals of an evaluation is to eliminate waste in government by encouraging effective,
efficient, and economical operations. By highlighting areas for operational improvement, the
OIG hopes to help managers avoid problems in the future and move quickly to address the issues
identified during the evaluation. This evaluation was conducted in accordance with the Quality
Standards for Inspections issued by the President's Council on Integrity and Efficiency. Our field
work was conducted during the period August through October 1997. During our evaluation and
upon its conclusion, we discussed our observations with the Assistant Administrator for Oceanic
and Atmospheric Research, as well as with the Director, National Sea Grant College Program,
and other senior program officials.


                                   PURPOSE AND SCOPE

The purpose of this evaluation was to determine whether the National Sea Grant College
Program, which is administered by NOAA’s Office of Oceanic and Atmospheric Research
(OAR), is achieving its goals as determined by the National Sea Grant College Program Act of
1966.

During our review, we analyzed relevant documents, legislation, data, prior studies, and earlier
OIG reviews. We held extensive discussions with representatives from NOAA, the Ocean
Studies Board of the National Research Council (NRC), and the executive director, president,
and president-elect of the Sea Grant Association. To gain insight into the scope and operations
of the programs at the university level, we visited sea grant programs in Maryland and Wisconsin
and conducted phone interviews with sea grant university directors, officials, and staff, marine
professionals and customers from the sea grant programs in Alaska, Delaware, Florida, Georgia,
Louisiana, Maine/New Hampshire, Mississippi/Alabama, North Carolina, Ohio, Oregon, and
Texas. On August 10 - 13, 1997, we attended the semiannual Sea Grant Conference held in
Madison, Wisconsin, where we spoke with sea grant university personnel and members of the
Sea Grant Review Panel. We also spoke to representatives of the Department of Agriculture
(USDA) Cooperative Extension Service, and academic experts in maritime and coastal research.

In response to a request by Commerce’s Under Secretary for Oceans and Atmosphere in 1994,
the NRC conducted a review of the Sea Grant program to determine whether the program could
be improved. NOAA accepted five of six major recommendations of the NRC report and the Sea
Grant program is working to implement them. As a result, the program is undergoing a major
transition. Therefore, we scaled back the scope of this review because we did not wish to
evaluate programmatic areas undergoing significant changes. The recommendations of this

                                                1
U.S. Department of Commerce                                                        Report IPE-10150
Office of Inspector General                                                                July 1998

review, therefore, primarily concern administrative rather than programmatic issues. We intend
to revisit the Sea Grant program in about two years, after the major changes have been fully
implemented.


                                        BACKGROUND

The National Sea Grant College Program, modeled on the Land Grant College System, was
created by the National Sea Grant College Program Act of 1966. Both programs are university-
centered efforts to link research, education, and outreach to further the development and
preservation of either agricultural resources (in the case of Land Grant) or marine resources (in
the case of Sea Grant). Sea Grant, established in the National Science Foundation, awarded its
initial grants in 1968. In 1970 Sea Grant was incorporated into the newly created NOAA, along
with other programs focused on the ocean and coastal zone. The mission of the Sea Grant
program, as set forth in 33 U.S.C. §1121(b), “is to increase the understanding, assessment,
development, utilization, and conservation of the Nation’s ocean and coastal resources by
providing assistance to promote a strong educational base, responsive research and training
activities, and broad and prompt dissemination of knowledge and techniques.”

Sea Grant, therefore, goes beyond basic ocean science research. It is a broad networked program
designed to address issues and solve problems by combining both the natural and social sciences,
and employing the transfer of knowledge and technology. Since its inception, support for the
program has varied. Every year, from 1983 to 1990, the program was eliminated from the
President’s budget, but had its funding restored each time through strong congressional support.

NOAA, through the National Sea Grant Office (NSGO), provides annual grants to 29 primary
member universities. The majority of federal Sea Grant funding requires a 50-percent nonfederal
match. In other words, of the total funding, two-thirds is provided by NOAA and one-third by
the sea grant university programs. The match may include both in-kind contributions and
nonfederal funds. Additional funding from other NOAA line offices or federal agencies, referred
to as “pass-throughs,” does not require a match. During fiscal year 1997, the sea grant
universities received $52 million in federal sea grant funding, provided $32 million in matching
funds (exceeding the match requirement), and accepted an additional $10 million in pass-through
funds. Figure 1 shows participating states with the total amount of funding (federal sea grant,
grantee match, and pass-through) received by the sea grant university in fiscal year 1997.
California and Massachusetts have more than one designated sea grant program in their states,
while three pairs of states--Illinois and Indiana, Maine and New Hampshire, and Alabama and
Mississippi--are joint sea grant programs.




                                                2
U.S. Department of Commerce                                                         Report IPE-10150
Office of Inspector General                                                                 July 1998


Figure 1




While other marine granting organizations support basic research, Sea Grant is charged with
research, education, and outreach. The 29 sea grant university programs use the federal and
matching funds to support these activities. The 1994 NRC study found that the average
distribution of funds per sea grant university, from 1983 to 1990, was 44 percent to support
research at more than 300 public and private colleges, universities, and institutions; 32 percent to
support salaries, travel, and materials for advisory services; 17 percent for administration and
program development; and 7 percent for education. Education is loosely defined as support for
undergraduate and graduate students, materials for the general public or for students in primary
or secondary grades, and training for teachers or other members of the labor force in marine



                                                 3
U.S. Department of Commerce                                                         Report IPE-10150
Office of Inspector General                                                                 July 1998

industries. The actual sea grant university support of education is most likely greater because, for
accounting purposes, many institutions place graduate student support under research.

Sea Grant has been a source of funding for such areas as marine policy development and
research, aquaculture, coastal research, fisheries management, marine biotechnology,
environmental technology, and seafood safety. The 29 sea grant universities are responsible for
requesting proposals, conducting peer reviews, selecting awardees (who are sub-grantees known
as “principal investigators”), and administering the funds in accordance with the federal, state,
and college, university, or institution guidelines. In 1997, 729 subgrants were awarded to
principal investigators, with an average award of about $77,000 (this figure does not include the
nonfederal matching share).

The extension service that links research to the users in the community is the component of the
Sea Grant program that makes it a unique marine granting program. The Sea Grant Marine
Extension Program (MEP), formerly known as the Marine Advisory Service, is modeled after the
Land Grant system. Each program supports salaries, travel, and materials for five to 10 marine
extension agents and outreach specialists. The extension personnel are located around the state,
often co-located with the county agriculture cooperative extension agents.

At the federal level, the Sea Grant program is currently administered by the 17-person NSGO
made up of marine and ocean scientists and support staff. Most of NSGO professional staff are
marine and ocean scientists of various academic specialties who monitor approximately four sea
grant universities each. The Sea Grant Review Panel, whose 15 members are appointed by the
Secretary of Commerce, serves in a broad advisory role to the Secretary, NOAA’s Under
Secretary for Oceans and Atmosphere, and to NSGO director.

Sea Grant awards run for four years. The initial award is based on a two-year “omnibus”
proposal that includes institutional support and individual research. Funding, however, is
provided for only one year, with a tentative commitment to fund at a specified level for the
second year, as covered in the omnibus proposal. Over the four-year period, amendments to the
grant are made that may include fellowship awards; projects that originate at the national level,
generally referred to as National Strategic Investments (NSI); pass-through funding for projects
from other NOAA line offices or federal agencies; and omnibus proposals covering the third and
fourth year of the grant. An example of a grant and the amendments to the award is outlined in
Figure 2 on the following page. The figure lists the grant actions that have occurred from
January 1995 through September 1997 for the Delaware sea grant university program.




                                                 4
U.S. Department of Commerce                                                      Report IPE-10150
Office of Inspector General                                                              July 1998


Figure 2
 Chronology of a Sea Grant Program Award: Delaware Sea Grant 1995 - 1997
                                               Pass-through/
                                               non-matching     Sea Grant     Non-federal
 Grant actions                          Date       funds          funds         match
 Initial award- First year funding of   1/31/95 $25,039          $1,072,000    $1,251,394
 2-year omnibus proposal
              Amendments
 1- NSI (marine biotechnology)          2/15/95                     75,000         7,609
 2- Post doc fellow                     5/18/95       52,600        56,700             0
 3- Competitive increase                7/20/95                    338,500       126,319
 4- NSI (oyster disease)                 9/6/95                    165,069        14,949
 5- Fisheries projects & services       1/26/96        9,000       250,000       312,241
 6- Second year omnibus funding         3/12/96                    777,000       936,724
 7- NSI (marine biotechnology);         7/18/96       716,734       75,000       235,594
      competitive increase
 8- NSI (oyster disease)                9/25/96                    109,934         16,058
 9- HBCU aquaculture project            9/25/96                     50,000         25,462
 10- First year funding of new 2-year   1/31/97                  1,259,999      1,221,261
      omnibus proposal
 11- Multi-agency near shore water      5/30/97                     18,000              0
      level project
 12- Estuarine water research           7/19/97       40,000             0              0
 13- NSI (oyster disease)               9/19/97                    116,859         11,756
 14- HBCU aquaculture project           9/23/97                     50,000         35,583




                                                  5
U.S. Department of Commerce                                                        Report IPE-10150
Office of Inspector General                                                                July 1998

                              OBSERVATIONS AND CONCLUSIONS


I.     National Sea Grant College Program Is Making Progress in Implementing
       National Research Council Recommendations

In 1994, NRC’s Ocean Studies Board conducted a review of the Sea Grant program, focusing
primarily on the research component of the program’s mission. As a result of the NRC study,
NSGO is shifting its efforts away from a project selection role to a more results-oriented
program review of the sea grant university programs. The current NSGO director, hired in 1996,
was a former member of the Sea Grant Review Panel. We were told that because of his prior
involvement with the program, he was able to “hit the ground running” and actively begin
implementing all but the first of the six NRC study recommendations, which proposed moving
the Sea Grant program directly under the NOAA Under Secretary for Oceans and Atmosphere.
We concur with NOAA’s decision, however, that the Sea Grant program should remain in a line
office. The remaining NRC recommendations and NOAA’s implementing actions follow:

       Strategic Planning. The NRC recommended that the directors of the sea grant
       universities and NSGO develop a single strategic plan articulating a shared vision that
       reflects NOAA’s strategic plan. Such a plan was developed over a period of 20 months in
       conjunction with the Sea Grant Review Panel and NOAA line office managers.
       Furthermore, each sea grant university either is working on, or has completed, a strategic
       plan for its program. The combined national and sea grant university strategic plans will
       be updated, at least, every four years. All of the plans will incorporate the NOAA
       strategic plan initiatives. One sea grant director stated that developing the strategic plan
       was a valuable exercise in defining his program’s “niche.” In addition to a strategic plan,
       the sea grant universities will submit a two-year implementation plan with their omnibus
       proposals.

       Clarifying Roles and Responsibilities. The NRC recommended that the NOAA Under
       Secretary clarify the roles of the sea grant universities, the Sea Grant Review Panel, and
       NSGO. As a result of this recommendation, the roles and responsibilities of NSGO and
       the sea grant university programs have significantly changed. NSGO will, as the NRC
       study suggested, concentrate on overall program monitoring, while the sea grant
       universities will be responsible for administering peer reviews and conducting selection
       panels to choose individual projects for sea grant funding.

       Another recommendation went into more detail about the future roles of NSGO and the
       sea grant universities with regard to proposal review and program evaluation.
       Specifically, the NRC suggested that (1) NSGO project-level (subgrantee) review process
       be eliminated; (2) the sea grant university be responsible and accountable for a valid, peer



                                                6
U.S. Department of Commerce                                                          Report IPE-10150
Office of Inspector General                                                                  July 1998

       review project-level selection process; (3) NSGO conduct a four-year program
       evaluation; and (4) the Sea Grant Review Panel evaluate NSGO on the same cycle.

       NSGO focus has shifted toward an overall program review approach to managing the Sea
       Grant program. In 1998 NSGO will no longer review the individual research proposals
       selected by the sea grant universities. Instead, NSGO is establishing guidelines for, and
       will evaluate sea grant universities on, their project selection processes. The guidelines
       require mail peer reviews and a panel, consisting of experts, to evaluate and prioritize the
       projects to be funded. NSGO staff attend, as “ex officio,” non-voting members, the
       project selection panel for the sea grant universities they are responsible for monitoring.
       Their presence on the technical panel is intended to ensure that the review is properly
       conducted and to question the rationale for selections, where appropriate. In addition,
       peer review training, based on the training of National Science Foundation officers, is
       going to be made available to the sea grant universities. The training will cover conflicts
       of interest, grants and contract law, signature authority, and other “best practice”
       techniques.

       These changes are further supported by the National Sea Grant College Program
       Reauthorization Act of 1998 which states that the NSGO director shall “evaluate the
       programs of sea grant colleges and sea grant institutes, using the priorities, guidelines,
       and qualifications established by the Secretary” and that sea grant institutions shall
       “conduct a merit review of all proposals for grants and contracts to be awarded [with sea
       grant appropriations].”

       NSGO is developing an evaluation program in which all 29 sea grant universities will be
       visited within a four-year cycle. The composition of the evaluation teams will consist of
       leaders in the marine field, at least one member with experience in university
       administration, and Sea Grant Review Panel members. The evaluation team will assess
       (1) the overall productivity and accomplishments of each sea grant university relative to
       the program’s strategic plan and level of support, (2) the program’s overall scientific
       strength, (3) the quality and effectiveness of the outreach and educational activities,
       (4) the effectiveness of planning and the achievement of stated goals and objectives,
       (5) the link between research, education, and outreach, (6) the program’s position and
       role in its academic setting, (7) affiliations with other sea grant university programs, state
       and regional academic institutions, state and federal agencies, and the private sector,
       (8) industrial and user group relations, and (9) based on the above, the program’s
       potential for growth. The first round of evaluations are scheduled to begin in the spring
       of 1998. In addition to the formal four-year evaluation, the new strategy is intended to
       strengthen annual performance reporting; provide for yearly reviews, as-needed, of
       specified areas or topics (e.g., a new biotechnology initiative on diseases in aquatic




                                                 7
U.S. Department of Commerce                                                                 Report IPE-10150
Office of Inspector General                                                                         July 1998

        organisms); and emphasize continuous dialogue between the NSGO program officers and
        the sea grant universities they are responsible for monitoring.1

        Interactions with Industry. NRC also called for NSGO and the sea grant universities to
        greatly increase their interactions with the marine industry in terms of program policy
        guidance, expanded outreach, joint research projects, and increased industrial financial
        support. To speed up the rate of technology transfer, for instance, NRC said that “[s]tate
        programs should consider funding joint industry-university research projects aimed at
        industry-identified constraints to growth and competitiveness.” Sea grant universities
        will be evaluated on their links to industry and user groups. Implementation of this
        recommendation is emphasized by the top priority Sea Grant’s 10-year strategic plan
        gives to developing advanced commercial marine biotechnologies and environmental
        technologies, research and education in seafood production, and coastal economic
        development.

        Funding. The final NRC recommendation suggested that any funds above the Sea Grant
        program base appropriation go towards a (1) merit-based enhancement of the sea grant
        universities and (2) small number of larger grants awarded on nationally competed
        research topics. In response to meritorious enhancement, NSGO will, as part of the four-
        year evaluation cycle, give a merit-based “bonus” to programs that rate very high on the
        evaluation criteria. In response to national research competitions, NSGO will issue
        “requests for proposals,” conduct peer reviews, and convene panels to make decisions on
        nationally competed research priorities. Currently, these research competitions account
        for about 20 percent of the funds given to the sea grant universities. National strategic
        investments include funds earmarked for specific programmatic areas (e.g., oyster disease
        research, non-indigenous species research) and NSGO priorities, such as the NOAA/Sea
        Grant partnership grants.

We recognize that NSGO and its sea grant university partners are undergoing a major transition
as they implement the NRC recommendations. Because of the numerous changes anticipated and
currently underway, we believe that a full-scale OIG review of the Sea Grant program would be
more valuable about two years from now.

However, we do have some issues. We are concerned that the 26 percent reduction in staff,
driven primarily by a congressionally mandated administrative cap, will hamper NSGO’s ability
to fulfill its oversight responsibilities. Since 1991, NSGO staffing has declined from 28 to 17,
although three new people will be joining the office soon. The professional staff has been
reduced from 14 to 7, although the new hires will increase that number to 10. The reductions are


        1
          B. Griswold, B. J. Copeland, and C. Fetteroff, Memorandum to the National Sea Grant College Program,
July 30, 1997, page 12-14. See also F. Graham, “Policy Document on the Implementation of Program Evaluation in
the NSGCP,” Draft, October 3, 1997.

                                                      8
U.S. Department of Commerce                                                         Report IPE-10150
Office of Inspector General                                                                 July 1998

primarily a result of the legislative caps placed on the Sea Grant program’s administrative
funding. NSGO staff said that former method of individually assessing and reviewing all
proposed research projects would be impossible to do given current staff size. Thus, both the
NRC recommendations and reduced staffing have compelled NSGO to redefine its oversight
responsibilities. NSGO must continue to monitor the performance of the sea grant universities,
synthesize the results of 29 programs in a way that adds value, and coordinate Sea Grant within
NOAA and other federal departments and agencies. The adequacy of NSGO staffing should be
revisited once the new evaluation process is in place.

Second, with less oversight of sea grant university funding decisions, we are concerned that the
shift in accountability for project selection to the sea grant university programs might lead to a
diminished role of NSGO and to less coherence and direction for the overall program. The
decision has been made to shift the accountability for project selection entirely to the sea grant
university programs. As a consequence, spending decisions on about 80 percent of the Sea Grant
budget are now made almost entirely by the sea grant universities. Unfortunately, some sea grant
university directors continue to express a narrow self-interest, preferring small increases to the
university program base rather than competing nationally for larger amounts, as evidenced by the
opposition towards non-earmarked, nationally decided competitions voiced during Sea Grant
Week.

We also heard from NSGO staff that sea grant universities often resist comparison with one
another and tend to be adverse to general standards. However, Sea Grant can resist “one-size-
fits-all” standards and still generate and adopt comparative best practices for sea grant
universities with, for example, large versus small budgets or staff. The national office can aid the
sea grant universities in adopting best practices, thus providing the necessary national leadership
to strengthen the program’s effectiveness.

Even though the sea grant universities have been given increased latitude to determine projects
and the shape of their programs, we recommend that NSGO not abdicate its overall responsibility
to ensure that sea grant funds are directed to NOAA’s overall objectives as well as NSGO’s
legislatively mandated research topics. NSGO must also ensure that the funds are spent
appropriately. We believe that a continued focus on building a national Sea Grant program is
needed to ensure that the entire program is more than simply the sum of its constituent sea grant
universities. Finally, NSGO needs to exert leadership, identify best practices, and use its new
evaluation process to help encourage further improvements in performance and oversee the best
use of funds.




                                                 9
U.S. Department of Commerce                                                         Report IPE-10150
Office of Inspector General                                                                 July 1998




In responding to our draft report, NOAA agreed with this recommendation. It stated that as a
result of adopting new procedures, in response to the changes required by the 1998
reauthorization bill, it will have a clear presence and leadership role in several key program areas
such as the oversight of the peer review process, the conduct of the merit-based program
evaluation, the allocation of resources to the Sea Grant program, the management of national
strategic investments, the determination of best management practices, and involvement in the
strategic planning at NOAA and the Sea Grant network level. These actions meet the intent of
the recommendation.




                                                 10
U.S. Department of Commerce                                                       Report IPE-10150
Office of Inspector General                                                               July 1998

II.    Marine Extension Program Should Benefit from the New Evaluation Process

The NRC review focused on, for the most part, the roles and responsibilities of the NSGO. It did
not include a thorough review of sea grant university activities, including the Marine Extension
Program. The distinctiveness of Sea Grant, compared with other marine granting programs, is its
linkage of research to education and outreach. While other government agencies, such as the
Office of Naval Research and the National Science Foundation, support marine-related research,
Sea Grant is the only broad marine-related grants program that links the above functions,
following the time-tested land grant model.

MEP, formerly known as the Marine Advisory Service, was funded at $8,722,351, with an
additional $6,091,444 in nonfederal matching, in fiscal year 1996. MEP’s mission is to facilitate
the wise use, conservation, and development of coastal and marine resources by acting as a
conduit between university researchers and a wide variety of citizens. This conduit works in two
directions (1) conveying the needs of marine and coastal communities to scientific researchers
and (2) transferring information, research results, and technology to ocean and coastal resource
managers, coastal business owners, and other resource users at the local level. Extension is
accomplished through applied research projects, workshops and training seminars, and
consultation. The extension staff use the publications, video tapes, and other media produced by
sea grant communications specialists in their outreach efforts.

During our review, we spoke with extension program directors or representatives from the
Alaska, Delaware, Florida, Georgia, Louisiana, Maine/New Hampshire, Mississippi/Alabama,
North Carolina, Ohio, Oregon, and Texas sea grant universities and three resource managers in
NOAA and one in USDA who works with the various sea grant entities. We also spoke to eight
MEP customers, all but one of whom strongly supported the work of the MEP. We found that
MEP engages in a range of activities such as the following:

C      An Alaska sea grant MEP agent was on the scene within hours of the Exxon oil spill in
       Prince William Sound to help mobilize fishermen and women and equipment to protect
       some of the world’s most productive salmon hatcheries.

C      Sea grant researchers and MEP staff were early leaders in aquaculture to help boost this
       fastest growing sector of U.S. agriculture. Texas sea grant pioneered the redfish and
       shrimp cultivation techniques used today and Louisiana sea grant developed land-based
       water circulation systems for the soft-shelled crab.

C      A Georgia sea grant MEP helped shrimp boat owners overcome their initial resistance to
       comply with the requirement to install Turtle Excluder Devices. The MEP determined
       which device design reduced the shrimp catch loss and then trained the boat captains to
       install and use the device.

                                               11
U.S. Department of Commerce                                                        Report IPE-10150
Office of Inspector General                                                                July 1998

C      Great Lakes sea grant extension staff work with boaters and anglers to slow the spread of
       quick-reproducing, non-native Zebra mussels. These highly destructive mussels are
       responsible for clogging the intake pipes of treatment plants and power generating
       stations.

C      A South Carolina MEP surveyed homes destroyed in the wake of Hurricane Hugo and
       recommended better building techniques and code enforcement to help reduce damage
       from future hurricanes or floods.

One common theme that we heard from customers, MEP Directors, and NSGO staff is that Sea
Grant, because of its university base and scientific basis, functions as an impartial voice of
reason. Among marine and business communities, where environmental issues and government
regulations can be contentious, the extension service is seen as an unbiased source of expert
information.

We found considerable variation among the extension programs. The number of extension
agents and specialists in the programs ranged from five to 18. There appeared to be little
correlation between the size of the coastal area and the number of extension staff. Six of the 11
extension programs sampled were situated at Land Grant universities and thus collocated with
the USDA-supported Cooperative Extension Service. Programs collocated with the Cooperative
Extension Service tend to have larger staffs and, following the land grant model, more
involvement at county and local levels. We also discovered that some marine extension staff at
the collocated programs report to the university’s dean of agriculture rather than the university’s
sea grant director. We have been told that in many cases where this occurs, the sea grant director
has little or no direct control over the extension personnel in the program. Finally, the variation
in the type and use of local outreach advisory efforts was significant. Some sea grant programs
had a separate extension advisory committee that assisted with identifying coastal and marine
outreach priorities. Other sea grant programs had a proliferation of local advisory committees for
each agent or geographic location and still others were guided by the overall sea grant university
advisory committee. We did not determine which arrangement best meets local and regional
needs.

Even though the extension function makes the Sea Grant program unique, MEP programs, until
recently, have been evaluated only within the context of their sea grant universities. According
to the memorandum accompanying the Report on Evaluations of Sea Grant College Programs,
the new evaluation process will “identify and stimulate best-management practices for
improvements in performance of the Sea Grant Network as a whole.”2 Taking note of the
variation in size, history, organization, and program of the extension services at each sea grant


       2
        B. Griswold, B. J. Copeland, and C. Fetteroff, page 2.

                                                      12
U.S. Department of Commerce                                                        Report IPE-10150
Office of Inspector General                                                                July 1998

university, the evaluation will assess performance and identify the “best practices” of the most
productive, integrated, and dynamic marine extension programs. While the specific state and
local context has to be taken into account, the identification and sharing of best practices across
programs can serve to speed up the sharing of ideas for systematically improving programs. For
instance, MEP staff have to reach out to various public and private interests in the community to
promote and improve such areas as seafood safety, coastal and environment water quality,
sustainable marine industries, preparation for coastal hazards, and coastal recreation and tourism.
MEP programs can be compared and evaluated according to their ability to flexibly field a wide
range of initiatives and techniques to address changing priorities and problems.

Despite the fact that a comparative review of the extension function across sea grant universities
is overdue, we decided not to undertake a full review of MEP while a comprehensive new Sea
Grant evaluation process is being developed. However, given the importance of the extension
service to Sea Grant, and the fact that it has not been evaluated across programs until now, we
are concerned that this function may be overshadowed by research. We also are concerned about
MEP’s dual lines of reporting to both the sea grant directors and the Cooperative Extension
Service. The chain of command should facilitate, not hinder, the operations of MEP and its links
to the overall Sea Grant program. We believe increased programmatic attention to MEP is long
overdue. Therefore, we recommend that NSGO ensure that the new Sea Grant evaluation
process focuses on the effectiveness of marine extension services, and recommends
improvements in those extension programs whose organizational arrangements and techniques
are generally not associated with the most productive, integrated, and dynamic MEP programs.



In its response to our draft report, NOAA agrees with the recommendation and states that the
new evaluation procedures “call for the review of outreach and extension activities by Program
Assessment Teams” and that the review “will determine how well the outreach program is
integrated into the Sea Grant program and how effective it is in meeting the Sea Grant and
NOAA strategic plan goals.” NOAA also said that outreach leaders will attend nationally
conducted leadership training workshops “to facilitate the adoption of best management
practices” and that it will formulate protocols for the development and review of outreach and
extension proposals. If completed, these actions meet the intent of our recommendation.




                                                13
U.S. Department of Commerce                                                                   Report IPE-10150
Office of Inspector General                                                                           July 1998

III.    Improved Coordination Between the Sea Grant College Program and Other Line
        Offices Must Become a NOAA Priority

Sea Grant and other elements of NOAA face the ongoing challenge of effectively linking and
applying science to the management of resources of the coastal zone and coastal ocean.3 The
extent of this challenge has been noted in NOAA and NRC reviews, and in a recent OIG review
of NOAA’s Coastal Zone Management Program (CZMP).4 It is an essential role of NSGO to
help frame and identify NOAA priorities; to address problems identified by CZMP, the National
Marine Fisheries Service (NMFS), and other resource management programs within the National
Ocean Service (NOS); and to encourage and direct sea grant universities to work on these
problems. Sea grant university scientists often prefer to do basic research and to explore
fundamental or far-reaching questions, but they should also do more to focus their scientific
knowledge and methods on questions of resource management.5

To help ensure that NOAA’s statutory mandates for coastal management and resource protection
are properly implemented, the Under Secretary for Oceans and Atmosphere acted upon the
recommendations of the Coastal Stewardship Task Force in July 1997. As a result, a number of
NOAA science offices were consolidated into a new Office of Coastal Ocean Science within
NOS. This office is made up of existing NOS monitoring, assessment, technical assistance, and
oceanographic survey programs, as well as the formerly stand-alone Coastal Ocean Program and
the Great Lakes Environmental Research Laboratory program, which was recently transferred
from OAR.

The Under Secretary and NSGO director discussed the possible move of Sea Grant to NOS, but
this has not happened, in part due to the opposition of the sea grant program directors, the Sea
Grant Association, and the Sea Grant Review Panel. While there may be valid reasons not to
move Sea Grant out of OAR, the problem of systematic coordination within NOAA, particularly
between OAR, NOS, and NMFS, must be resolved. For example, the NOS Office of Coastal


        3
          Within NOAA, only the National Marine Fisheries Service and the National Ocean Service are primarily
devoted to resource management. Other line offices and programs have far greater proportions of their budgets
devoted to science, prediction, and assessment.
        4
         U.S. Department of Commerce, Office of Inspector General, Coastal Zone Management and National
Estuarine Research Reserve System Programs Require Management Attention to Increase Effectiveness, Report No.
IPE-9044, December 1997, pp 9-12. See also National Research Council, Science, Policy, and the Coast, National
Academy Press, Washington DC, 1995; NOAA Coastal Stewardship Task Force Report, July 1996; National
Ocean Service, Healthy Coastal Ecosystems and the Role of Integrated Coastal Management, February 1995.
        5
         See Science and Information Management Issues Report of the Interagency Ecosystem Management Task
Force, November 1995. The Ecosystem Approach: Healthy Ecosystems and Sustainable Economies, Volume II,
November 1985, pp. 47-68.

                                                      14
U.S. Department of Commerce                                                         Report IPE-10150
Office of Inspector General                                                                 July 1998

Resource Management, through CZMP, holds the congressional mandate to coordinate all federal
activities in the coastal region. Therefore, the coordination of NOS with Sea Grant, one of the
main mobilizers of university talent for NOAA, is especially important. CZMP and NMFS both
need the Sea Grant program to focus more of its attention on management-oriented coastal
science, so that resource managers are able to learn what strategies, methodologies and,
treatments work best on a host of complex problems, such as aquatic diseases, water quality,
coastal hazards, beach and shoreline erosion, and habitat restoration and protection.

Some coordination efforts have already been made. To strengthen Sea Grant’s academic linkage
to other parts of NOAA, NSGO set aside $500,000 for an initial round of competitive
NOAA/Sea Grant partnership grants. The objectives of the partnership-funded projects are to
both increase the leverage of Sea Grant resources and focus university capabilities on issues of
strategic importance to both Sea Grant and other NOAA line organizations. The projects will be
funded by the Sea Grant program, with the sea grant university nonfederal match, and either in-
kind contributions or funds equal to the sea grant amount provided by the NOAA line office.

The response to the first round of solicitations was enthusiastic. For the available $1 million of
funding ($500,000 for two years), NSGO received 63 proposals requesting a total of $7.3
million. Funding was available for 11 awards, five which are in collaboration with NOS, four
with NMFS and two with OAR. NSGO is promoting a number of the highly rated, unfunded
projects to the line offices for consideration of further support. Another on-going activity is the
cooperative efforts between state coastal zone management programs and the sea grant university
programs. NRC reported that “In many states, sea grant personnel have formed strong ties with
local coastal management personnel and with local and regional NOAA personnel.” The work of
sea grant extension staff, we learned, often complements the work of NOAA or state CZMP field
personnel who have regulatory responsibilities. Unfortunately, we also learned that cooperation
is often uneven and personality-driven.

While these partnerships create excellent opportunities for collaboration at the project level,
overall coordination is still needed between NSGO, NMFS, and the NOS. One method of
enhancing collaboration is by detailing employees to NSGO. Until recently, a NOAA Corps
officer was detailed to NSGO, an arrangement that NSGO said facilitated communication about
Corps activities. Currently, plans are underway to locate an NMFS employee in NSGO. NMFS
will pay for the salary that NSGO is unable to, due to the administrative cap, while NSGO will
provide the full-time equivalent slot for the employee. Arrangements such as this could be made
with other NOAA offices.

OAR, where Sea Grant resides, should reach out to NMFS and NOS to clarify and prioritize Sea
Grant national initiatives. OAR and NSGO should be coordinating with other NOAA line
offices to identify potential issues to be addressed, reinforce national strategic investments, and
avoid duplication. Sea Grant should also play a greater role in setting NOAA priorities. Sea

                                                15
U.S. Department of Commerce                                                            Report IPE-10150
Office of Inspector General                                                                    July 1998

Grant’s well-developed marine extension network is ideally situated to gather and disseminate
information about needs and priorities. Because all offices are busy, unless such coordination is
a priority, it will likely not get done. Therefore, a formal avenue for fostering coordination is
necessary. We recommend that NOAA ensure that regularly scheduled meetings between the
Assistant Administrators and relevant staff of OAR, NOS, and NMFS are held to discuss current
and future research priorities, foster partnership activities of their respective partners at the local
and state level, and to better utilize Sea Grant program resources to help accomplish NOAA’s
numerous marine and coastal goals.



NOAA agreed with this recommendation in its response to our draft report, and has already taken
actions to fully implement the recommendation. A Science and Technology Task Group within
Sea Grant, whose members include senior administrators from OAR, NOS, NMFS, and the
NOAA Chief Scientist, will meet biannually to advise the Sea Grant Director on strategic
research and technology development issues. In addition, the Sea Grant Director and OAR
Assistant Administrator are formulating a plan that establishes a formal mechanism among the
various elements of NOAA, for the purpose of improving the outreach and the more efficient
utilization of the university-based capabilities in the department. We would appreciate receiving
a copy of the plan for review when it is available.




                                                  16
U.S. Department of Commerce                                                                Report IPE-10150
Office of Inspector General                                                                        July 1998

IV.     Grant Processing Workload Can Be Better Managed

The timely processing of awards is both a goal of the Grants Management Division (GMD) and
an expectation of NSGO and the sea grant university programs. Until this year, sea grant
proposals were submitted throughout the year on a staggered basis. This was changed to
facilitate joint reviews, where all sea grant university grantees receive funding at the same time,
and to accommodate GMD’s need to reduce the number of fourth quarter grant actions. It was
decided that all awards would be made, in part to take advantage of GMD’s slower period, by
either February 1 or March 1. Since GMD requires two months to complete its award
processing, NSGO must submit the proposals by the first of December or January. Therefore,
GMD’s processing of all sea grant university proposals takes place during December through
February, with a considerable portion of GMD’s work having to be completed during the
December/New Year holiday season. According to OMB regulations,6 prior to the notification of
an award, recipient organizations may incur obligations and expenditures at their own risk for up
to 90 days to cover costs. While this provision takes some of the pressure off GMD staff,
tardiness of any award, especially the omnibus proposal, creates uncertainty and anxiety among
program recipients and principal investigators and some disruption to their plans.

There can be several impediments to the timely awarding of a grant. Late submission of the
proposals to NSGO by the sea grant university program is the first possible impediment. NSGO
waits until several proposals are ready before dropping them off to GMD. The enormous
workload that is created when award proposals arrive at the same time is another problem.
Because GMD needs to review multiple voluminous sea grant university proposals that each
include 10-25 separate research projects and applicable budgets, it is easier if the university
proposals are submitted on a staggered basis, rather than grouped together. When a number of
grant packages arrive at once, the heavy workload strains GMD, particularly since that staff has
been reduced from 14 to 8 full-time grants specialists with little or no reduction in the grants
processing workload.

Finally, GMD staff must direct numerous technical and administrative follow-up questions to the
NSGO program specialists who oversee specific grantees. Yet, both the personnel at the sea
grant universities and NSGO staff are often on leave during the holiday period and unavailable to
answer questions. This brings the grant review process to a temporary halt, making it difficult
for GMD staff to finish processing all grants by the target dates. To reduce this logjam, we
recommend that NSGO make every effort to get the proposals to GMD by mid-November and, to
assist with the staggering of the workload, forward the proposals as they come in. In addition,
NSGO should conduct a thorough review of the proposals, including the budgets, and be
available during a portion of the GMD review period to answer any follow-up questions.

        6
         OMB Circular A-110, Uniform Administrative Requirements for Grants and Agreements With Institutions
of Higher Education, and Other Non-Profit Organizations, November 19, 1993 (revised).

                                                    17
U.S. Department of Commerce                                                        Report IPE-10150
Office of Inspector General                                                                July 1998

Some improvements can also be made to better manage the review process for sea grant
amendments. Amendments submitted by the sea grant universities proposing additional new
projects or fellowships, or enabling the flow of pass-through funds, are often not grouped
together. Rather, they come into GMD on an irregular basis throughout the year. This can cause
delays when multiple amendments for a given university are not submitted together. Either the
paperwork on the first amendment is pulled back to include the subsequent amendment, resulting
in the need to recalculate the figures and prepare new paperwork, or two separate amendments
are issued, often doubling the amount of time and paperwork. We believe that it would be much
more efficient if the numerous sea grant amendments were grouped together and submitted to
GMD on a quarterly or other regular basis. Implementation of this recommendation would
expedite issuing the awards and save time for GMD, NSGO, and the grantees.



NOAA concurs with parts of our recommendation to expedite the processing of sea grant awards.
The submission date for grants with a March 1 start date will be moved forward two weeks, a
change that should alleviate the end-of-calendar year leave problems. NOAA will also study
methods to ensure that the grants will be delivered to GMD in a complete and satisfactory
manner. We accept that the current arrangement of a March start date should stay the same;
however, we believe that steps can be taken to forward the incoming grant proposals as they
come in, once they have been thoroughly reviewed by NSGO. Historically GMD receives
several proposals at once rather than spread out over a week or two. We request that NOAA, in
its action plan, describe what mechanisms it will put in place to ensure that the proposals arrive
in the grants office in a timely and complete manner.

We also ask that NOAA reconsider its position on forwarding grant amendments to GMD.
NOAA does not agree that amendments should be grouped together and sent to GMD on a
quarterly basis, citing that the advance time needed to do so decreases program flexibility. While
we agree that a quarterly basis might be inadequate, another schedule, such as six or eight times a
year could be implemented. In the past, the sea grant universities submitted proposals to NSGO
six times a year on the first day of October, December, February, April, May, and August.
While this particular schedule may have flaws, an alternative schedule could be developed. We
feel it is not an efficient use of GMD’s time to have amendments arrive on an irregular basis.
Therefore, we request that NOAA reconsider and develop a schedule for submission of
amendments, unless it can be documented that there will be a significant decrease in the number
amendments due to other actions, such as the processing of pass-through funds as separate
grants.




                                                18
U.S. Department of Commerce                                                        Report IPE-10150
Office of Inspector General                                                                July 1998

V.     Oversight Role of Grants Management Division Needs to Be Strengthened

Financial oversight of the sea grant awards is conducted by GMD, not NSGO. GMD is
responsible for supporting NOAA program offices by reviewing award proposals, processing
applications, negotiating awards, managing the administrative and financial aspects of awards,
monitoring progress against expenditures, resolving audit problems, and closing out the grant
when its projects have been completed. During fiscal year 1997, GMD processed over 1,000
NOAA awards totaling $357 million for about 300 recipients, including the 29 sea grant
universities.

While GMD is responsible for providing effective control over, and accountability for, the outlay
of federal funds, its oversight is hampered by some of the grants’ unique characteristics. The sea
grant award does not fit the standard departmental grant through which money is provided,
usually for a single objective, from a limited number of sources. Instead, sea grants are long-
term, multi-project awards with multiple amendments from many sources (Sea Grant
appropriations, nonfederal matching funds, and pass-through funds from other agencies and from
NOAA).

A major oversight problem for GMD is its inability to monitor progress against funds drawn
down by the sea grant universities. Specifically, GMD is unable to track the obligation of funds
from the multiple sources as they relate to the individual projects and activities. The information
cannot be tracked within NOAA’s financial assistance disbursement system (FADS), nor does
the standard financial form, usually submitted by the university or institution the sea grant
program resides in, provide a breakout of federal expenditures (i.e., Sea Grant versus other
NOAA line office or federal agency funds).

FADS is unable to differentiate between the     Figure 3
types of federal funds within a grant.
Currently, the system operates under a first-
in first-out system of payment. The example
in Figure 3 illustrates how funds withdrawn
by the sea grant university are initially
credited to the omnibus project accounting
code. Only after $916,000 has been
withdrawn will the next project accounting
code, in this case fellowship funds, be
credited against. Under 33 USC §1131(e),
unobligated amounts of Sea Grant
appropriations revert to the program,
whereas pass-through funds are returned to
the U.S. Treasury. While it happens

                                                19
U.S. Department of Commerce                                                        Report IPE-10150
Office of Inspector General                                                                July 1998

infrequently, there is a recent example where funds from the Environmental Protection Agency
(EPA) reverted back to the treasury even though the EPA funds had been spent and the work
completed. In fiscal year 1993, NSGO received $15,120 from EPA to fund a project at the
Illinois/Indiana sea grant program. This project was added to the grant. When the grant was
closed, $12,000 was remaining after all work under the award was completed. Since the EPA
task was the last to be drawn down, the funds remaining in the grant were considered EPA funds
and, unlike Sea Grant appropriations which are returned to the National Sea Grant College
Program, given to the U.S. Treasury. To avoid such problems, FADS is implementing a pro-rata
formula that will proportionally draw down all existing project funds in a grant. While this may
solve the deobligation problem, it still will not allow NSGO or GMD to monitor progress against
expenditures.

We also found that the interagency agreements or memoranda of understanding associated with
pass-through funds from other federal agencies are not included in the proposals forwarded to
GMD by NSGO. While the National Sea Grant College Program Act contains specific authority
for another federal agency to transfer funds to NOAA, without such appropriate documentation
in the grantee file the funding obligation and the scope of work cannot be readily determined by
GMD, the Office of General Counsel, or the OIG. To correct this problem, we recommend that
copies of the applicable memorandums of understanding, for pass-through funds from other
federal agencies, are included with the proposals that are submitted to NSGO to GMD.

There is also a problem with tracking matching funds, which are required for most awards made
with sea grant appropriations, but not for awards made with pass-through funds. The standard
financial form, usually submitted by the institution the sea grant program resides in, does not
provide a breakout of federal expenditures (i.e., Sea Grant versus other NOAA line office or
federal agency funds). Thus, while the sea grant programs are required to spend sea grant funds
at the same rate as matching funds, it cannot be tracked under the current reporting system.

There is no simple solution to these problems. One solution, albeit perhaps not a cost-effective
one, is to issue separate grants for pass-through funds. This would isolate all pass-through funds
from sea grant appropriations and the required nonfederal match. Financial forms would be
issued for each grant, thus the two types of federal funds, sea grant appropriations and pass-
through funds, would no longer be grouped together. Consequently, GMD would be able to
monitor the obligation rate of nonfederal contributions versus sea grant appropriations. In
addition, the deobligation problem would disappear because pass-through funds would no longer
be combined with sea grant funds under the same grant in FADS. Another solution is for NSGO
to require the sea grant university programs to submit a financial form with a breakout of
nonfederal match, sea grant, and pass-through funding. This action would have to comply with
the provisions of the Paperwork Reduction Act. A final option is to have GMD conduct an
evaluation of NSGO and sea grant university grants management systems. Under OMB Circular
A-110, the sea grant universities are required to keep effective control over and provide

                                                20
U.S. Department of Commerce                                                        Report IPE-10150
Office of Inspector General                                                                July 1998

accountability for all funds, property, and other assets. In addition, the NOAA Grants and
Cooperative Agreements Policy Manual states that NOAA may review an applicant’s or
recipient’s records at any time to determine the adequacy of its financial systems and require any
needed corrective actions to bring the organization into compliance with NOAA requirements.
Therefore, we recommend that GMD select and implement one of these options we have
presented to ensure itself that National Sea Grant funds are adequately monitored.

Finally, we believe that a GMD-led review of grants management procedures would be
beneficial. There is precedence for such reviews. GMD has recently begun a review of OAR’s
Joint Institutes program. That review, which covers the nine universities that have formal
collaborative research agreements with NOAA’s Environmental Research Laboratories, consists
of a pre-review and an on-site review. The pre-review examines whether (1) grant amendments
represent severable work in each case and if they are being used properly for changes in budget,
statement of work, time extensions, etc.; (2) financial reports are timely and acceptable; (3) the
federal program officer is satisfied with progress reports; (4) the official file is in order and
contains all required documents; and (5) there are any outstanding OIG or other audit problems.
The on-site review by GMD staff is conducted with the Joint Institute program officials and the
university office responsible for oversight of that program to discuss problems and explore
solutions. We recommend that GMD, in conjunction with the sea grant evaluation process,
perform a similar review to address the various grant administration issues and benefit the entire
Sea Grant program.



In its response to our draft report, NOAA did not agree “at the present time” with the
recommendation to issue separate grants for pass-through funds or to require the sea grant
universities to submit a financial form with a breakout of spending by funding type. NOAA
states that “undertaking further analysis of the problems and recommended solutions” is required.
NOAA states that it will work with the sea grant universities and GMD to “analyze the risks and
scale of the problem raised.” We ask that NOAA carefully consider the potential options set
forth in the above section. In addition, we would like to be provided a summary of NOAA’s
actions with regards to this recommendation.

NOAA also agreed that GMD should help assess and improve sea grant university administrative
procedures and processes. However, it suggests that conducting an administrative assessment
during a Program Assessment Team evaluation is not the appropriate time to do so because the
focus of the review will be on programmatic performance. We agree that an administrative
review would most likely take a backseat during a program assessment. Nonetheless, we believe
that an on-site review, conducted by GMD, is as important as the three areas (grant application
review, fiscal officer training, and program officer training) NOAA lists as the “primary vehicle
for improvement for the future.” According to NOAA, topical assessment teams will provide

                                                21
U.S. Department of Commerce                                                       Report IPE-10150
Office of Inspector General                                                               July 1998

opportunities for administrative on-site reviews. While that may be true, we believe such
opportunities will be limited because the assessments will be conducted on an as-needed basis
and only when, in the case of grant management, administrative deficiencies are identified.

Thus, if topical assessments are going to be the primary mechanism for an on-site review, then
(1) GMD should be given the opportunity to join the team or comment on the administrative
procedures prior to the team’s visit, so that there can be follow up by each topical assessment
review team, and (2) GMD should be able to initiate a topical assessment, if warranted.

Finally, with regard to providing a copy of the memorandums of understanding to GMD for
oversight purposes, NOAA agrees to submit the MOU or other related funds document in the
package forwarded to GMD. These actions meet the intent of the recommendation.




                                               22
U.S. Department of Commerce                                                        Report IPE-10150
Office of Inspector General                                                                July 1998

VI.    Policy on Grantee Matching Funds Needs to Be Clarified

Sea Grant is a cost-sharing program, except for specific cases, such as pass-through funds.
Legislation requires that the NOAA funding for an approved Sea Grant program (or project) not
exceed two-thirds of the total cost.

NSGO has no written policy or guidance on its requirements for grantees’ nonfederal matching
funds. We have been informed that the individual amendments do not have to meet the match
requirement as long as the total nonfederal contribution meets or exceeds the one-third share
requirement for the entire grant. As amendments are added to the grant, running totals of the Sea
Grant, nonfederal matching, and pass-through funds are calculated independently by NSGO and
GMD. According to NSGO, it only requires that the total nonfederal contributions meet the total
match requirement. As a result, individual amendments often appear to be very over- or under-
matched.

We found it difficult to determine whether the match requirements were properly being met
because of the lack of a written policy and summary information in the grant files. Given that all
federal funds in a sea grant university award do not require a match, it is only by going through
each amendment (in voluminous files) that it can be determined whether the one-third share has
been met or exceeded. Staff from GMD and the Department’s Office of General Counsel have
experienced similar difficulties. Questions raised have been whether the cumulative match
applies to the entire life of the award or on an annual basis and whether all omnibus proposals
must meet the nonfederal one-third share requirement. We believe NSGO should provide a
summary of the sea grant appropriations, nonfederal matching dollars, and the pass-through
funds with each proposed amendment that is forwarded to GMD.

We found one grant where a nonfederal matching contribution was made for a pass-through
amendment, even though it was not required. It is unclear whether those funds will be included
in the match total. If so, we question whether pass-through matching funds for a project which
may not be a high sea grant priority and/or may not have gone through a rigorous peer review
process, should be included in the match calculated for subsequent sea grant award competitions.
We believe that by doing so, the match provided for a Sea Grant program initiative will likely be
reduced. This raises a question of equity and consistency between the sea grant universities and
how they are applying the one-third share requirement. Therefore, we recommend that NSGO
issue written guidance outlining its nonfederal match policy and the appropriate grantee reporting
requirements to show compliance with that policy.

In addition, NSGO needs to clarify its policy on nonfederal matching contributions to ensure
consistent application among the sea grant universities. To achieve this result, we recommend
that, all proposals forwarded to GMD should include a record of (1) the exact amount of pass-
through funds not subject to the cost sharing requirements of the Sea Grant program funds, and

                                                23
U.S. Department of Commerce                                                      Report IPE-10150
Office of Inspector General                                                              July 1998

(2) the amount of Sea Grant funds and the status of the match, in accordance with NSGO policy.
This would ensure a more accurate and traceable recording and accounting for nonfederal
matching funds.



In response to our draft report, NOAA stated that it will begin writing a matching funds policy.
A matching fund tracking sheet will also be included in all award proposals. NOAA’s planned
actions fully meet the intent of the recommendation. NOAA should provide the OIG with a copy
of its matching funds policy when it is available.




                                              24
U.S. Department of Commerce                                                        Report IPE-10150
Office of Inspector General                                                                July 1998

                                   RECOMMENDATIONS


We recommend that the Under Secretary for Oceans and Atmosphere direct the appropriate
officials to take the following actions:

1.     Ensure that sea grant funds are directed to NOAA’s overall objectives as well as the
       National Sea Grant Office’s legislatively mandated research topics, and that the entire
       program is more than simply the sum of its constituent sea grant universities. NSGO
       should exert leadership, identify best practices, and use its new evaluation process to help
       encourage further improvements in performance and oversee the best use of funds.

2.     Ensure that the sea grant evaluation process currently being implemented also focuses on
       the effectiveness of marine outreach and extension services, and recommends
       improvements in those sea grant university extension programs whose organizational
       arrangements and techniques are generally not associated with the most productive,
       integrated, and dynamic programs.

3.     Establish and formalize regular meetings between the Assistant Administrators and
       pertinent staff from the Office of Oceanic and Atmospheric Research, the National Ocean
       Service, and the National Marine Fisheries Service. The purpose of the meetings should
       be to ensure coordination between the line offices, foster partnership activities of their
       respective partners at the local and state level, and better utilize National Sea Grant
       College Program resources, such as the marine extension network and scientific
       expertise, to accomplish NOAA’s numerous marine and coastal goals.

4.     Expedite the processing of Sea Grant awards by having the National Sea Grant Office:
       (a) time the submission of omnibus proposals to GMD to take into consideration end-of-
       calendar-year leave for staff of both GMD and NSGO; (b) schedule the submission of the
       omnibus awards over a longer period of time, if necessary, to reduce the clustering of the
       workload; and (c) group multiple amendments for the same grant together, such as on a
       quarterly basis, to reduce paperwork and time spent processing amendments.

5.     Ensure that the obligation of National Sea Grant funds can be adequately monitored by
       the Grants Management Division. This could be done by issuing separate grants for pass-
       through funds or requiring the sea grant university programs to submit a financial form
       with a breakout of nonfederal match, sea grant, and pass-through funding.

6.     The NSGO director should ask the director of GMD to participate in the forthcoming
       formal evaluations of the sea grant university programs to help assess and improve grant
       administrative procedures and processes.

                                                25
U.S. Department of Commerce                                                      Report IPE-10150
Office of Inspector General                                                              July 1998

7.     Include a copy of the applicable memorandums of understanding, for pass-through funds
       from other federal agencies, with the proposals that are submitted by NSGO to GMD so
       that proper oversight can be exercised.

8.     Issue written policy and guidance on the requirements for sea grant university nonfederal
       matching funds, and ensure a more accurate recording and accounting for such funds. In
       addition, all proposals forwarded by NSGO to GMD should include a record of (a) the
       exact amount of pass-through funds not subject to the cost sharing requirements of the sea
       grant appropriations and (b) the amount of sea grant appropriations subject to the cost
       sharing and the status of the match, per the NSGO policy.




                                               26
U.S. Department of Commerce                              Report IPE-10150
Office of Inspector General                                      July 1998

                              APPENDIX–AGENCY COMMENTS




                                         27
U.S. Department of Commerce        Report IPE-10150
Office of Inspector General                July 1998




                              28
U.S. Department of Commerce        Report IPE-10150
Office of Inspector General                July 1998




                              29
U.S. Department of Commerce        Report IPE-10150
Office of Inspector General                July 1998




                              30
U.S. Department of Commerce        Report IPE-10150
Office of Inspector General                July 1998




                              31
U.S. Department of Commerce        Report IPE-10150
Office of Inspector General                July 1998




                              32
U.S. Department of Commerce        Report IPE-10150
Office of Inspector General                July 1998




                              33
